No. __________
IN THE SUPREME COURT OF THE UNITED STATES
Charles Dennis Friedman,
Petitioner,
v.
United States of America,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Charles Dennis Friedman respectfully requests that this Court
grant him leave to proceed in forma pauperis. In support of this request, Petitioner
states that undersigned counsel was appointed pursuant to the Criminal Justice Act,
18 U.S.C. ยง 3599(a)(2), by the United States Court of Appeals for the Tenth Circuit,
and that Petitioner is unable to retain counsel and pay the costs attendant to
proceeding before this Honorable Court.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s Grant R. Smith
Grant R. Smith
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

